No. 21-10

 

In the
Supreme Court of the United States

 

Lori BRAUN, ET AL.

Petitioner,
v.

BRIAN Ray BURKE, ET AL.
Respondents.

DECLARATION OF SERVICE

 

I, Matthew G. French, declare under penalty of perjury that I did, on the 20%
day of August, 2021, send out from Little Rock, Arkansas 4 packages containing 1
copy of the BRIEF OF RESPONDENT BRIAN RAY BURKE IN OPPOSITION in the
above entitled case. All parties required to be served have been served by United
States Postal Service, via Priority Mail with postage prepaid, as well as electronic
service via email. Packages were plainly addressed to the following:

SEE ATTACHED SERVICE LIST
I, Matthew G. French, declare under penalty of perjury that the foregoing is
true and correct. This declaration is made pursuant to Supreme Court Rule 29.5(c)

and 28 U.S.C. § 1746.

Executed on August 20, 2021.

Matthew G. Frenc

 
Michael Aaron Avery

Counsel of Record

1219 Rockrose Road N.E.
Albuquerque, New Mexico 87122
mavery@suffolk.edu

 

Paul J. James

JAMES & CARTER, PLC

P.O. Box 907

Little Rock, Arkansas 72203
pyj@jamescarterlaw.com

Andrew C. Clarke

THE COCHRAN FIRM — MIpsouTH
One Commerce Square, Suite 1700
Memphis, Tennessee 38103
aclarke@accfiym.com

Counsel for Petitioner

 

Nicholas J. Bronni

Counsel of Record

SOLICITOR GENERAL OF THE STATE OF ARKANSAS
ARKANSAS ATTORNEY GENERAL’S OFFICE

323 Center Street, Suite 200

Little Rock, Arkansas 72201
Nicholas.Bronni@arkansasag.gov

Counsel for Respondent Bill Bryant

 
